<html>
<title> - SOMALIA: PROSPECTS FOR LASTING PEACE AND A UNIFIED RESPONSE TO EXTREMISM AND TERRORISM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                SOMALIA: PROSPECTS FOR LASTING PEACE AND
             A UNIFIED RESPONSE TO EXTREMISM AND TERRORISM

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2009

                               __________

                           Serial No. 111-58

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
50-633                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5334233c13302620273b363f237d303c3e7d">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California<greek-l>As 
    of 3/18/09 deg.
               Noelle Lusane, Subcommittee Staff Director
          Sheri Rickert, Republican Professional Staff Member
                     Antonina King, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Ted Dagne, Specialist, African Affairs, Congressional 
  Research Service...............................................     2
J. Peter Pham, Ph.D., Associate Professor, Justice Studies, 
  Political Science and Africana Studies, Director, Nelson 
  Institute for International and Public Affairs, James Madison 
  University.....................................................    13

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Ted Dagne: Prepared statement................................     8
J. Peter Pham, Ph.D.: Prepared statement.........................    18

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
Written questions submitted for the record by the Honorable 
  Barbara Lee, a Representative in Congress from the State of 
  California [no responses received prior to printing]...........    34
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................    36


    SOMALIA: PROSPECTS FOR LASTING PEACE AND A UNIFIED RESPONSE TO 
                        EXTREMISM AND TERRORISM

                              ----------                              


                        THURSDAY, JUNE 25, 2009

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:13 p.m., in 
room 2172, Rayburn House Office Building, Hon. Donald Payne 
(chairman of the subcommittee) presiding.
    Mr. Payne. I will withhold my opening statement in order to 
save time. But I welcome all of you here, and I will make an 
opening statement after I return from the votes that we will 
have, that have already started, but we will hear from our 
first panel.
    We first have with us Mr. Ted Dagne, a graduate of Howard 
University. He is a specialist in African Affairs at the 
Foreign Affairs, Defense, and Trade Division of the 
Congressional Research Service. He has been with the CRS since 
1989.
    From 1993-1995, Ted Dagne served as a professional staff 
member of the House Foreign Affairs Committee, Subcommittee on 
Africa, under the chairmanship of Mr. Harry Johnston from 
Florida. Mr. Dagne also served as a special adviser from 1999-
2000 to President Clinton's Special Envoy for Sudan and to the 
Assistant Secretary of State for African Affairs, Dr. Susan 
Rice.
    Over the past 20 years, Mr. Dagne has written over 2,000 
major studies on Africa, including reports on the war on terror 
in Africa, the status of democracy, conflict resolution, 
humanitarian disasters, and studies on over 30 countries. Ted 
has also co-authored two books on Somalia and Africa and the 
war on terror.
    As a professional staff member and a staffer at CRS, Mr. 
Dagne wrote and assisted in drafting over 100 resolutions and 
legislative pieces in Congress. In 1994, Mr. Dagne helped write 
the African Conflict Resolution and Prevention Act, which was 
signed into law. The act provided funds to the Organization of 
African Unity Conflict Resolution Center and funded a number of 
demobilization and reintegration programs in Africa. Over the 
past two decades, Mr. Dagne has traveled on fact-finding 
missions to over 30 African countries on multiple occasions.
    Also, we have Dr. J. Peter Pham. Dr. Pham is director of 
the Nelson Institute for International and Public Affairs at 
James Madison University in Harrisonburg, Virginia, where he 
holds an academic appointment as associate professor of justice 
studies, political science and African studies. He is also 
senior fellow for Africa Policy Studies at the Foundation for 
the Defense of Democracies in Washington, DC; senior fellow and 
project director at the National Committee on American Foreign 
Policy in New York City; and adjunct faculty for the sub-
Saharan Africa course at the United States Air Force Special 
Operations School in Florida.
    Dr. Pham is the author of over 200 essays and reviews and 
is the author, editor or translator of over a dozen books.
    Dr. Pham is the incumbent vice president of the Association 
for the Study of the Middle East and Africa, an academic 
organization chaired by Professor Bernard Lewis and 
representing more than 700 scholars of Middle Eastern and 
African studies at over 300 colleges and universities in the 
United States of America.
    Dr. Pham was the recipient of the 2008 Nelson Mandela 
International Prize for African Security and Development, 
presented jointly by the Royal United Services Institute for 
Defence and Security Studies, the Brenthurst Foundation and the 
Nelson Mandela Foundation.
    At this time, the hearing will officially come to order.
    Mr. Dagne, would you begin?

   STATEMENT OF MR. TED DAGNE, SPECIALIST, AFRICAN AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Dagne. Chairman Payne and members of the subcommittee, 
let me first express my appreciation for inviting me to testify 
before your subcommittee.
    I am sure many of you have seen the images on TV or have 
read about it in the newspapers, and some of you have witnessed 
the untold suffering of many Somalis over the years. I, for 
one, have stopped counting how many innocent civilians have 
been killed, maimed or how many people have been displaced from 
their homes.
    Unfortunately and sadly, many more people will die in the 
coming weeks and months. A Somali friend recently told me that 
he has given up dreaming about a better future for his family. 
Almost 3 years ago this week, in the testimony before the same 
subcommittee, I read a short Somali proverb in an attempt to 
describe the conditions that many Somalis face. The proverb 
goes like this:

        ``Sorrow is like rice in the store; if a basketful is 
        removed every day, it will come to an end at last.''

    I stated then that Somalia's tragedy would come to an end; 
we just do not know how soon. Three years later, I still cannot 
tell you with certainty what the future holds for the millions 
of Somalis.
    One thing is clear. The determination and commitment I saw 
15 years ago, at the height of the civil war, by Somali women, 
human rights advocates and Somali nationalists is still very 
much alive. The leadership of the current government is not 
staying at the Serena Hotel in Nairobi, Kenya. They are in 
Mogadishu, facing the challenges and the risks every day. Some 
left family members and friends so that they can help their 
people.
    Hundreds of thousands of Somalis have died due to fighting 
famine or disease.
    I have witnessed firsthand the untold suffering of the 
people of Somalia over the decades. A generation of Somalis is 
growing up surrounded by violence, poverty, and they face a 
very bleak future. Many have been internally displaced or have 
been forced to flee their country.
    Indeed, the most affected by the violence and chaos in 
Somalia are women and children. Many Somali girls have been 
raped and violated by the so-called ``militia.'' Even a rape 
victim was stoned to death for reporting what happened to her. 
If the extremists waging war against the TFG succeed, we are 
likely to see more of these acts by the so-called al-Shabaab.
    What has happened over the past 6-7 weeks?
    Well, in early May, Somali extremist groups, backed by 
foreign fighters, launched a major offensive against the TFG 
and the African Union peacekeeping forces. Over the past 6 
weeks, more than 300 people have been killed and many more 
wounded. The primary objective of this offensive is to force 
the collapse of the TFG and to force AMISOM to leave Somalia.
    Several al-Shabaab factions, a group called Hisbul al-Islam 
and a number of foreign fighters, have been engaged in a series 
of battles against government forces. Al-Shabaab has also 
carried out in recent weeks, and in the past, a series of 
assassinations, including those of the police chief and the 
minister of interior, who were killed last week. This was, in 
large part, to create a leadership crisis.
    More than 400 foreign fighters, reportedly from 
Afghanistan, Yemen, Pakistan, the United States, Canada, 
Britain, Kenya, and several other countries have been engaged 
in fighting in support of the al-Shabaab forces. More than 290 
of these fighters reportedly entered Mogadishu in early May, 
while an estimated 50 of these fighters were in Mogadishu for 
much longer. Some of these fighters have been killed in battles 
in Mogadishu, but we do not know for sure how many.
    The insurgents definitely receive support from some 
governments and al Qaeda. In May 2009, the spokesman of al-
Shabaab admitted that they have invited and that they have 
accepted some foreign fighters to join them in the fighting.
    In early June, al-Shabaab and Hisbul Islam made important 
gains in Mogadishu and in other parts of Somalia, in large part 
due to some defections to the insurgency and due to lack of 
resources. The TFG forces regrouped, and by mid-June, managed 
to regain some lost ground in Mogadishu, but the TFG remains 
vulnerable, and its ability to defeat the insurgents depends on 
resources, including armed personnel carriers, mobility and 
well-organized and sustainable military operations.
    The presence of the African Union force has helped prevent 
the takeover of Mogadishu thus far, but the African Union force 
does not have a Chapter VII mandate, requiring the force to be 
on the defensive rather than taking offensive measures against 
the insurgents.
    The African Union force, however, has used its long-range 
artilleries against the insurgents. These measures have 
weakened and have forced the insurgents to remain outside the 
range of those weapons.
    The most serious challenge facing the TFG forces and those 
of the African Union is that the insurgents are highly 
decentralized and move in small units and operate independently 
of one another, meaning that killing an al-Shabaab commander 
does not mean the end of the al-Shabaab, or destroying a unit 
of al-Shabaab does not mean the insurgency will be over. That 
is the danger that we face.
    So who are these leaders?
    Well, the leaders of al-Shabaab are not well-known with the 
exception of a few. Some of the key commanders and leaders of 
al-Shabaab actually do not come from south or south central 
Somalia. Some of them come from Somaliland.
    Ahmed Abdi Godane is one of the key leaders, who is also on 
the United States terrorism list, who was trained and fought in 
Afghanistan. Another one is named Mukhtar Robow, who is also on 
the U.S. terrorism list and is considered one of the key 
leaders of al-Shabaab and is the former spokesman, although in 
recent weeks he has been marginalized and has been at odds with 
the other commanders.
    Another key leader who comes from Somaliland is Ibrahim 
Haji Jama, who is also on the U.S. terrorism list. Again, he 
reportedly trained and fought in Afghanistan.
    Another one is Hassan al-Turki, a member of the Ogaden 
clan, who is not even a Somali, who comes from Ogaden, 
Ethiopia. He has openly called for jihad and has closely 
aligned himself with foreign fighters. There are a number of 
them who consider themselves to be leaders. What is important 
to remember is that these leaders have begun now to turn 
against each other.
    The U.S. Government placed the al-Shabaab on the terrorism 
list, but that has had very little impact on the operations and 
support that the al-Shabaab receives from outside.
    There is another leader that the international community 
has focused on, who is also on our terrorism list. His name is 
Sheik Hassan Aweys. In late April, Aweys, who is also on the 
terrorism list, returned to Mogadishu from Eritrea. Aweys had 
remained in Eritrea and formed his own faction after the top 
leadership of the ARS signed an agreement in Djibouti with 
other Somali parties, which led to the formation of the current 
government.
    ARS-Asmara, under the leadership of Aweys, did not garner 
significant support; although Aweys intensified his support for 
extremist groups inside Somalia, ARS leaders were not in full 
agreement with Aweys and his support for the extremist groups 
inside Somalia. Recently, they provided a visitor written 
documentation to this effect, disassociating themselves from 
him. By the end of May, most of them had left Eritrea, which 
means ARS-Asmara no longer exists.
    In late April, I met Sheik Aweys in Eritrea. He seemed 
confused at times. On a number of occasions, he contradicted 
himself. When asked if he was prepared to state publicly his 
support for peaceful participation in the current political 
process, Aweys responded positively. However, when he was asked 
whether he would renounce terrorism and call for an end to 
violence against civilians, Aweys stated that, since he 
considered the American interpretation of ``terrorism'' as 
anti-Islam, he cannot condemn terrorism. Doing so, he asserted, 
``is denouncing his own religion.''
    When asked if he wished to be removed from the terrorism 
list, Aweys stated that he would not seek to be removed because 
that would be going against his own religion. When confronted 
about his role in support of terrorism and violence in Somalia, 
he characterized this act as a struggle against the enemies of 
Somalia.
    Upon his return to Mogadishu in late April, Aweys 
discovered that the clan leaders and militia who had supported 
him in the past now wanted him to work with the government. The 
militia group he created, Hisbul Islam, also was split, and 
some had joined al-Shabaab. Some of the top leaders of al-
Shabaab also wanted him to declare an alliance with Osama bin 
Laden.
    In my view, Aweys is unlikely to emerge as the leader of 
the insurgency, and he seems to be losing support even within 
his own inner circle.
    Briefly now about the humanitarian and human rights 
conditions: Conditions in 2008 actually became worse than in 
previous years. The recent fighting in Mogadishu has added more 
challenges to already poor conditions on the ground. An 
estimated 1.1 million people have been displaced and more than 
0.5 million have fled to neighboring countries in the past 
several years.
    Human rights groups and Somali observers estimate that more 
than 22,000 have been killed over the past 2 years, most of 
them civilians. Civilians, humanitarian workers, journalists, 
and human rights advocates have been the primary targets of the 
insurgents.
    According to Amnesty International, rape, killing and 
looting have become widespread; entire neighborhoods have been 
destroyed. A number of Somali journalists covering the crisis 
in Somalia have been assassinated by insurgents and security 
forces over the past 18 years.
    The United States did provide significant assistance over 
the years, particularly in humanitarian aid. In the past 5-6 
months, the United States has also provided crucial support in 
terms of peacekeeping operation support as well as support to 
the TFG. In Fiscal Year 2009, it is estimated that the United 
States assistance to Somalia will reach $177 million, including 
peacekeeping and humanitarian assistance.
    Now, I am sure most of you have heard and have read about 
the piracy problem. I do not want to dwell on that issue since 
it has been overblown beyond what is needed. What is important 
here is, I would like to highlight some of the issues that have 
not been covered and some of the issues that have been ignored 
as it relates to piracy.
    By the way, who are these pirates?
    The number of Somali pirates is not known. While there are 
more pirates now than in previous years, the pirates do not 
seem to have a unified organization with a clear command 
structure. Many of these pirates are reportedly fishermen and 
former militia members. The pirates primarily come from the 
Puntland region of Somalia, and are members of different clans 
and do not necessarily come from one region. Some reports have 
suggested that the pirates are being controlled and directed by 
the Islamic insurgents in south central Somalia. I am not aware 
of any evidence, however, to support this assertion.
    What do Somalis say about piracy?
    Well, some Somalis view the piracy crisis as a foreign 
problem with little impact on their daily life. Some argue that 
the piracy problem will continue as long as ship owners are 
willing to pay the pirates ransom.
    In the face of difficult economic conditions and a growing 
humanitarian crisis, many Somalis resent the fact that the 
piracy problem has received a great deal of international 
attention. Some Somali community leaders contend that some 
Somalis get involved in criminal activities in order to 
survive, while many others have made this kind of activity a 
lifetime profession. Many Somalis contend, however, that in the 
absence of a better alternative, they have come to accept life 
with all the difficulties they face daily.
    Mr. Payne. Mr. Dagne, I think that, if you could hold your 
point, I will go vote now. There has been no voting time left 
for some time now, so I am going to rush over to the floor. We 
will have seven other votes at 2 minutes each, so it will be 
about 14 minutes--15--maybe 20 minutes at the most. I will see 
if I can catch this vote.
    The hearing will stand in recess. I should be back in 15-20 
minutes. Thank you. You can follow the votes on the screen as a 
matter of fact. Bye now.
    [Recess.]
    Mr. Payne. Thank you for your patience. Votes are still 
proceeding, but there will be about a 25-minute period of time, 
and then there will be about two other votes that will take 
about 10 or 15 minutes. We will break at that time after 25 
minutes, and then resume 10 minutes after that.
    I am calling the hearing back to order. We were in the 
process of hearing testimony from Mr. Dagne from the 
Congressional Research Service, and I would ask him to proceed 
as he sees fit.
    Thank you.
    Mr. Dagne. Let me, I am almost done with my testimony. I 
was talking about the pirates, who they are, and how we got 
into this problem. You know, the pirates, these fishermen have 
become pirates in large part because their way of life was 
destroyed. In 2005, the United Nations Environmental Program 
released a report documenting the damages resulting from toxic 
waste dumping on Somalia's shores. According to a UNEP 
spokesmen, uranium radioactive waste, there is lead, there is 
heavy metal like cadmium, mercury, there is industrial waste, 
there is hospital waste, chemical waste, you name it, 
everything was dumped.
    According to the report, the primary reason for toxic 
dumping in Somalia is cost. The report states that it costs 
$2.50 per ton to dump toxic waste in Africa compared to $250 
per ton to dump waste in Europe.
    So what are the policy options available to us in dealing 
with the political and security problems? The current 
government in Mogadishu is generally seen as the last defense 
against the extremists and terrorist groups currently waging 
war in south central Somalia. Effective policy options 
available to deal with these threats are limited. The 
international community may consider engagement with Islamic 
insurgents and clan elders to deal with the political and 
security problems facing Somalia. Regional and United States 
officials are convinced that it is pivotal to strengthen the 
moderate elements of the Islamist movement.
    Most observers believe that Al-Shabaab can only be 
contained by another Islamist Somali movement. Some Al-Shabaab 
leaders are determined to continue their military campaign, and 
are not inclined to participate in any negotiations. In this 
case, targeted measures, including sanctions and other harsh 
measures against the most extreme elements of the Al-Shabaab 
might pave the way for other moderate leaders to emerge. Harsh 
measures and sometimes violent measures against these 
individuals could backfire in the short term and increase anti-
Western violence.
    A more effective option for containing the extremist threat 
may be to look for a Somali-led solution. The TFG Somaliland, 
Puntland, and other moderate Somali forces could possibly form 
a coalition to contain the advances of the most extreme 
elements of the Al-Shabaab. Such a coalition is likely to get 
support of the Somali population. A Somali-led initiative would 
take away one of the most powerful justifications used by the 
Al-Shabaab to wage war, the presence of foreign forces and the 
use of Islam for political reasons. However, it is important 
that the unified regional approach must be maintained.
    In conclusion, there appears to be no easy solution or 
options to bring a lasting peace in Somalia. Somalis continue 
to make great sacrifices to achieve this objective. There is a 
very telling Somali proverb that goes like this: The best bed 
that a man can sleep on is peace.
    Thank you.
    [The prepared statement of Mr. Dagne follows:]<greek-l>Ted 
Dagne deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much.
    Dr. Pham.

STATEMENT OF J. PETER PHAM, PH.D., ASSOCIATE PROFESSOR, JUSTICE 
  STUDIES, POLITICAL SCIENCE AND AFRICANA STUDIES, DIRECTOR, 
 NELSON INSTITUTE FOR INTERNATIONAL AND PUBLIC AFFAIRS, JAMES 
                       MADISON UNIVERSITY

    Mr. Pham. Thank you, Mr. Chairman. In the interests of 
time, I would like to offer a summary of my views and ask, with 
your leave, that my prepared statement be entered into the 
record.
    Mr. Payne. Without objection.
    Mr. Pham. Chairman Payne, Ranking Member Smith, and members 
of the subcommittee, thank you for the opportunity to speak to 
you today about the critical conditions currently prevailing in 
Somalia and threatening the security and stability of the 
entire Horn of Africa. Permit me the liberty of observing it is 
3 years almost to the day since I appeared before the 
predecessor of this subcommittee at its first hearing on the 
threat of extremism emanating from Somalia, and this body under 
your leadership, Mr. Chairman, and that of Mr. Smith has 
maintained consistent vigilance on this important security 
issue, while simultaneously upholding the highest standards of 
respect for human rights.
    As a scholar who closely tracks developments in the 
subregion, allow me to add a personal note of appreciation for 
your leadership in keeping attention focused on issues relating 
to the Horn of Africa in general, and in particular for 
bringing about this historic hearing, which brings together in 
the same forum high representatives of the Transitional Federal 
Government of Somalia, the Puntland State of Somalia, as well 
as some of Somalia's international partners. I regret that the 
Foreign Minister of the Republican of Somaliland was unable to 
join us to share the experience of his people in avoiding the 
very scourges, including extremism, conflict and piracy, which 
this hearing endeavors to examine.
    While I understand the Somalilanders' sensitivity about any 
appearance prejudicial to their 1991 declaration of renewed 
independence and the delicate nature of the internal politics 
there, as Somaliland, alone of all the territories which were 
once part of the Somali Democratic Republic before the collapse 
of the Mohammed Siyad Barre regime, moves to its second 
democratic Presidential and parliamentary elections in just 3 
months, I nonetheless hope that the representatives of the 
Republic of Somaliland will provide the subcommittee with 
information on its contribution to security and peace in the 
subregion.
    This hearing convenes at a moment when Somalia is going 
through yet another grave crisis, the latest in a two-decade-
long cycle of state collapse, political failure, and, sadly, 
human suffering. The various factions of Al-Shabaab, their 
assorted allies, including the Hisbul al-Islamiyya, helped by 
outside states and other actors, have proven themselves more 
resilient than many international observers have been willing 
to admit. Having in recent months consolidated their control of 
the area from the southern suburbs of the capital to the border 
with Kenya, the militants launched an offensive at the 
beginning of May with the apparent objective of encircling the 
capital to its north as well. In just the last week, the 
already bad security situation has deteriorated further, as 
militants, following on earlier incursions, brought their 
offensive into Mogadishu amid fierce fighting.
    Now is not the time to assign blame; however, if we are to 
go forward, we have to acknowledge the realities on the ground. 
Notwithstanding the hopes that accompanied the installation of 
Sheikh Sharif as the TFG president at the end of January--and I 
say installation because I would not call the extralegal 
machinations in Djibouti an election unless we want to hold up 
a mockery of the TFG's own charter by the parliamentarians as 
an example of constitutional governance for the subregion--the 
results have been disappointing. The TFG is not a government in 
any commonsense definition of the term. It is entirely 
dependent on foreign troops from the African Union mission in 
Somalia to protect its small enclave in Mogadishu, but 
otherwise it maintains no territory, it administers no laws, 
and even within its restricted zone, it has shown no functional 
capacity to govern, much less provide minimal services to its 
citizens.
    Even if Sheikh Sharif manages to reconcile the TFG's 
original secular framework with its more recent, albeit ill-
defined, adoption of Sharia, the transitional government faces 
an almost insurmountable deficit of capacity, accountability, 
and credibility.
    This grim recital of just some of the TFG shortcomings is 
not gratuitous. Rather, the point I am trying to make is that 
even in what many view as the best-case scenario coming out of 
the current crisis, that the TFG will somehow manage to rally 
enough support among Somali clans and communities to push back 
the current offensive and win itself some time, the 
transitional regime is not very well positioned to win a long 
war against the insurgency by wooing some of the insurgents and 
defeating or at least marginalizing the others, much less to 
emerge as the foundation for whatever political settlement 
Somalis eventually agree upon.
    The worst-case scenario, of course, is that Al-Shabaab and 
its allies defeat the TFG entirely, assume control of the 
capital, as well as the bulk of south central and southern 
Somalia, which they already loosely control. If this were to 
happen, it would be a geopolitical disaster, with repercussions 
rippling well beyond the borders of Somalia.
    While comparisons with Taliban-ruled Afghanistan in the 
1990s are a bit of a stretch, that is not to say that outside 
actors, ranging from al Qaeda, which would undoubtedly try to 
capitalize at least propaganda-wise on the events, to Ethiopia, 
which would be tempted to return in force, to the United 
States, which would likely ramp up counterterrorism operations, 
will not treat it as such. However, it should be noted that 
even if the insurgents do not defeat the TFG outright, in many 
respects they have already achieved a status and represent a 
significant threat to Somalis and others.
    Whatever the origins and intent of the militants currently 
facing the TFG, they have clearly been radicalized. Even 
without taking Mogadishu, al-Shabaab and its allies have 
already succeeded in carving out a geographical space where 
they and like-minded groups can operate freely. To cite one 
example, the suicide bomber who killed four South Korean 
tourists and their guide near the ancient fortress city of 
Shibam in Yemen's Hadramut on March 15th underwent training at 
a Shabaab-controlled southern Somali camp before returning to 
his native country and carrying out the deadly attack. 
Intelligence officials believe the same to be the case with the 
suicide bomber who 3 days later hit a convoy carrying the South 
Korean Ambassador and investigators looking on that earlier 
attack. Thus without even toppling the TFG, Shabaab has already 
achieved a major objective by securing a territorial base from 
which like-minded militants and terrorists can carry out 
attacks elsewhere, especially against targets in the Arabian 
Peninsula, as well as participating in the current violence 
against Somalis.
    As if this were not disturbing enough for the United 
States, even more unsettling is the fact that a number of young 
Somali Americans have left their homes in the United States and 
gone to Shabaab-controlled areas of Somalia, presumably for 
training. One of these men, a naturalized United States citizen 
from Minneapolis, Minnesota, became the first-ever American 
suicide bomber when he blew himself up in an attack in 
Somaliland last October, an attack which left dozens of 
civilians dead.
    One hopeful indicator, however, amidst this gloomy 
landscape, has been the ideological motivations of al-Shabaab 
and aligned extremist movements do not permit them to proceed 
at a slower speed in their march through Somali territory and 
society. Instead, a certain internal dynamic compels them to 
keep pushing, even when it might be in their long-term 
interests to act with greater circumspection. Militarily, this 
temptation to overreach is visible in the relentless advance, 
whose cause one might argue would be better served by 
consolidating their rule in areas they already control.
    Turning to the issue of piracy, the attacks by Somali 
pirates on merchant shipping in the waters off the coast of 
Somalia have added an additional challenge to an already 
complicated regional security picture. The marauders have 
hardly been cowed by the international naval presence involving 
warships from the United States, the United Kingdom, France, 
Russia, China, India, Japan, Turkey, and several other 
countries, which assembled earlier this year in an 
unprecedented effort to prevent a repeat of last year's wave of 
more than 100 attacks on commercial vessels in the Gulf of Aden 
and nearby waters. The pirates have simply shifted their 
operations to areas which they know are not patrolled, with 
strikes taking place on the high seas of the western Indian 
Ocean and elsewhere, as witnessed by the seizure 2 weeks ago of 
a German-owned cargo ship 60 nautical miles south of Oman.
    While the 2 dozen or so cruisers and other vessels from 
various countries make for great political theater, and may 
have even proven useful in escort duty along narrowly defined 
sea lanes, there are simply not enough of them to make a real 
dent in operations against the pirates. And even if there were 
enough warships to conduct adequate counterpiracy operations, 
it is doubtful that the commitment is sustainable over a long 
term.
    Hence, what is needed is a pragmatic solution that deals 
with the economic, political, and security challenges caused by 
the expanded activities of Somali pirates, but whose costs can 
be contained within acceptable limits, and whose long-term 
operation is sustainable by those with the most immediate stake 
in its success, regional and local actors as well as merchant 
vessels which must transit these dangerous waters. So in 
addition to beefing up security on and for merchant vessels, 
the only sustainable option currently available for dealing 
with the scourge is dealing with the problem on land.
    I have repeatedly argued that the problem of lawlessness at 
sea will only be definitively resolved when the international 
community summons up the political will to adequately address 
the underlying pathology of de facto statelessness onshore. One 
of the ways to do this, of course, to achieve maximum local 
support, is building up Coast Guard capabilities that are 
viewed not purely as an antipiracy measure, but rather embed 
those efforts within the local economies of the districts, 
providing benefits to communities as a way of weaning them away 
from their dependence on criminal enterprises.
    Mr. Chairman, United States policy toward Somalia has 
veered from neglect in the 1990s to an emphasis on kinetic 
counterterrorism operations in the aftermath of 9/11, and 
especially after the Ethiopian intervention flushed out some of 
the terrorists long sought by American security officials. Even 
if justifiable in individual cases, the use of hard power has 
bred resentment and allowed radical forces to wrap themselves 
up in the mantle of nationalism, undermining our broader 
strategic objective of countering radicalization, to say 
nothing of humanitarian norms.
    More recently, even as the situation has gone from bad to 
worse, presenting the entire Horn of Africa with a security 
crisis of the first order, spreading instability across a 
fragile subregion, and raising the specter that transnational 
terrorist movements will find and exploit opportunities 
offered, the approach of the international community and 
apparently the policy of the United States has become ensnared 
in what is essentially a circular logic. For want of better 
ideas, the international community has opted to buy into a 
seductive but vicious cycle of its own manufacture, whereby it 
must stay the course and continue to devote scarce political 
and material resources, while exclusively shoring up the TFG 
because it has already invested too much time and resources 
into it to do otherwise.
    If the failure so far of no fewer than 14 internationally 
sponsored attempts at establishing a national government 
indicate anything, it is the futility of the notion that 
outsiders can impose a regime on Somalia, even if it is staffed 
with presumably moderate Somalis of our liking. Instead, in the 
context of the decentralized reality among the Somali, we, the 
concerned international community in general, and the United 
States in particular, need to invest the time and resources to 
seek out local partners who can, first of all, work with us in 
creating a modicum of stability, societal, economic, and 
ultimately governmental. This will not be an easy task since 
the conflict of recent years has taken its toll on civil 
society. Nonetheless, local groups do exist.
    If I may cite one example, SAACID, the extraordinary 
nongovernmental organization founded and directed by Somali 
women engaged in conflict transformation, women's empowerment, 
education, health care, emergency relief, employment schemes, 
development. Amid the current crisis, for example, this NGO is 
providing 80,000 2,000-calorie-a-day meals to residents of 
Mogadishu.
    I would add a consensus is emerging among experts who have 
tracked Somalia for some time that any workable solution must 
embrace a bottom-up or building-block approach rather than the 
hitherto top-down strategy.
    Given the ripple effects of continuing disorder in the 
Somali lands, in addition to helping the functional parts of 
the TFG, it makes no sense for the international community not 
to work with effective authorities in the Republic of 
Somaliland, Puntland State, the province of Gedo, and other 
areas, as well as to seek to engage traditional leaders and 
civil society actors. These figures enjoy both legitimacy with 
the populace and have actual, as opposed to notional, security 
and development agendas which complement our own goal of 
preventing chaos from reigning.
    With respect to intervening in Somalia, while I salute the 
courage and determination of the Ugandan People's Defense Force 
peacekeepers in AMISOM, along with their Burundian colleagues, 
and I am fully cognizant of concerns of Somalia's immediate 
neighbors like Ethiopia and Kenya, I would argue that the 
legitimate security interests of the countries in the region 
can best be met not by their becoming embroiled in a conflict 
where their support of the TFG has become itself a rallying 
point for the insurgents. Rather, I would argue that the 
African resources might be best put to work containing the 
spread of instability from Somalia, and preventing additional 
foreign fighters and supplies from fueling the conflict in the 
country.
    I readily acknowledge that the approach such as the one I 
am sketching out may strike many as minimalist; however, I am 
convinced, and even more so today, that it is the course most 
likely to buy Somalis themselves the space within which to make 
their own determinations about their future, while at the same 
time allowing the rest of the world, especially the countries 
of the Horn of Africa, to achieve their legitimate security 
objective. Not only does such a strategy offer the most 
realistic hope of salvaging a modicum of regional stability and 
security out of the situation that grows increasingly 
intractable, but it allows the time, space, and freedom for 
Somalis to rebuild their shattered common life.
    Mr. Chairman, Ranking Member Smith, members of the 
subcommittee, I am grateful again for the opportunity to come 
before you today. I look forward to your questions. Thank you.
    [The prepared statement of Mr. Pham follows:]<greek-l>J. 
Peter Pham deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Let me thank both of the panelists for your 
testimony.
    I will recess again. This time, though, I believe that I 
can be back within 10 or 15 minutes. We have 3 minutes left on 
the current vote, which should take about 7 or 8 minutes, and 
then an immediate vote to follow. So I really expect to be back 
within 10-12 minutes. So we will stand recessed.
    [Recess.]
    Mr. Payne. We will reconvene the hearing, and I will just 
ask our two presenters, I might ask a quick question or two, 
and then we will recess the hearing and move to our second 
panel.
    I listened to both presentations. We know that the 
situation in Somalia is very difficult. We know that it has 
been a country without a central government since 1991. We have 
seen the difficulty. Dr. Pham had a relatively gloomy 
perspective, and we are aware of the difficulties. Mr. Dagne 
also indicated that there are very, very difficult roads ahead; 
however, that there is a solution, in his opinion. Dr. Pham 
indicated that militarily Somalia could not be won, suggesting, 
I guess, that the Somalis support the insurgents, which I would 
kind of conclude, in Mogadishu.
    So I just wonder, if you, Dr. Pham, would comment on this, 
if I am mischaracterizing. And, of course, the criticism of the 
way the TFG was selected. I know that you said there was no 
election, which is true. It would be very difficult to have an 
election in Somalia after 20 years of no government. But from 
what I understand, there was an attempt to select a 
Transitional Federal Government that sort of represented the 
society of Somalia, the clans and the subclans and the regions. 
So if you could just, in a nutshell, once again reiterate your 
prognostication that it is virtually impossible, and then, Mr. 
Dagne, your prognostication on why it might be possible.
    Mr. Pham. Thank you, Mr. Chairman, for the opportunity to 
clarify.
    Militarily I think there are two, possibly three things 
that need to be distinguished. One is I am very critical, and 
although I do not believe that an external military 
intervention is helpful, because it will play directly into the 
hands of the extremists, who would then wrap themselves up in 
the mantle of nationalism.
    Mr. Payne. All right. But would you--you say an internal. 
Wouldn't you suggest that the insurgents are being supported 
externally?
    Mr. Pham. They are being supported externally by both 
foreign fighters, organizations, states, what have you. But 
what I am suggesting is that a foreign military force into 
Somalia would be totally inadvisable. We have seen where that 
has led already in the past, and I don't think that we want a 
reprise of that.
    What I do suggest, however, is that we work with effective 
authorities within Somalia itself, the functional parts of the 
Transitional Federal Government, the State of Puntland's 
authorities, the Republic of Somaliland, and other areas where 
we might identify those who resist the extremists and are 
capable and effective; that we work with them, that we don't 
simply channel all of our assistance through one channel, and 
we work with the effective authorities, and then allow the 
Somalis themselves the time to turn on the extremists.
    The extremists, I think, as my colleague would agree, do 
not represent Somali society or the traditional Islam practiced 
in Somalia. So with time and containment, in a way the 
extremists carry the seeds of their own internal contradiction 
and self-destruction from within. We just need to keep that 
from spreading beyond. And the most effective way is to work 
with those who are most effective.
    Mr. Payne. Thank you.
    Mr. Dagne. Thank you.
    Mr. Dagne. I think the Somalis, in my view, already have 
achieved a great deal in terms of bringing stability and 
attempting also to contain the threats posed by the extremists 
and terrorists. One just has to look at Puntland and also to a 
certain extent also Somaliland.
    Are we without clear option? The answer is no. We are--the 
U.S. Government is providing assistance. You have foreign 
forces. The Ugandans and the Burundians are there assisting. 
They are not there simply to function as peacekeepers, but they 
are protecting the legitimate government in Mogadishu.
    I think in addition to a Somali-led option, the 
international community also must see this threat as a threat 
not just to Mogadishu or Puntland or Somaliland, but the threat 
to the entire region. This is no longer a Somali-led 
insurgency. This is an insurgency now being led by outsiders, 
whose primary purpose is to destroy, to obstruct, and to 
establish a base for the terrorist groups.
    What specific measure can be taken? For one, I think the 
Somalis, both in Mogadishu and Puntland and in Somaliland, 
could come together, form a coalition to contain this threat. 
The international community can provide assistance, targeted 
assistance, in terms of logistic support, transportation. And 
at times it might be necessary also to target in order to take 
out some of the leaders who would never change their position.
    But the military option is not the only option. We also 
need to invest both in terms of economic development, as well 
as I think the basic necessities that the Somalis need. You are 
not going to have a piracy problem if the pirates were to have 
employment. If the Somali people see that there are schools 
being built, hospitals, they would be able to support and they 
would have an interest to fight the extremists and the 
terrorists.
    Mr. Payne. Well, let me thank both of you. We would 
probably have many more questions; but, because of the 
interruption with the votes, I would just like to thank both of 
you for your expert testimonies. And with that, I will conclude 
the formal meeting.
    All right. Go ahead. Yes.
    Ms. Woolsey. Go ahead.
    Mr. Payne. I think we would like to bring on our guests who 
have traveled here for a long time, because we may run into 
another set of votes. And I think that would not work well, 
since we have introduced so many folks. So with that, thank you 
very much, and I will adjourn this portion.
    [Whereupon the hearing adjourned to reconvene as a 
briefing.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi nutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Lee deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
